HHS/OIG, Audit -"Ryan White Title I Funds Claimed by the Eastern Virginia Medical School of the Norfolk Eligible
Metropolitan Area During the Fiscal Year Ended February 28, 2002,"(A-03-03-00389)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Ryan White Title I Funds Claimed by the Eastern Virginia Medical School
of the Norfolk Eligible Metropolitan Area During the Fiscal Year Ended February 28, 2002," (A-03-03-00389)
March 3, 2005
Complete
Text of Report is available in PDF format (727 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the Office of City Manager, a Ryan White Title I grantee, ensured
that the Eastern Virginia Medical School (EVMS), one of its contractors, (1) provided the expected program services to
clients eligible for CARE Act Title I and (2) followed Federal requirements for claiming program costs under CARE Act Title
I.  The Office of City Manager did not ensure that EVMS provided the expected level of services to eligible CARE Act
Title I clients, and EVMS did not always follow Federal requirements for charging costs to the program.  In addition
to two procedural recommendations, we recommended that the Office of City Manager refund $210,057 to the Federal Government
for the amount EVMS improperly charged to the CARE Act Title I program.  While the Office of City Manager concurred
with our findings and recommendations, EVMS took exception to our findings.